U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 23, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Hannah P. v. Joseph Maguire, Acting Director, Office of the Director
of National Intelligence, No. 19-549
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 23,
2019, and placed on the docket on October 29, 2019. The government's response is now due, after
one extension, on December 30, 2019. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including January 31, 2020, within which to file a
response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0549
HANNAH P.
JOSEPH MAGUIRE, ACTING DIR. OF THE DIR. OF
NATIONAL INTELLIGENCE

TIMOTH BOSSON
BOSSON LEGAL GROUP, PC
823 SOUTH KING STREET
LEESBURG , VA 20175
DANIEL R. ORTIZ
UNIVERSITY OF VIRGINIA SCHOOL OF LAW
SUPREME COURT LITIGATION CLINIC
580 MASSIE RD.
CHARLOTTESVILLE, VA 22903
434-924-3127
DORTIZ@LAW.VIRGINIA.EDU
MARK T. STANCIL
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K STREET, NW
WASHINGTON, DC 20006
202-775-4500
MSTANCIL@ROBBINSRUSSELL.COM

